D
I                                                            MINE SAFETY AND HEALTH
S
C                                                            ADMINISTRATION
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             PATTERN OF SIGNIFICANT AND SUBSTANTIAL
                                                             VIOLATION RATE EXTENDED ANALYSIS




                                                                                 Date Issued:   December 15, 2010
02-A12-345-67-890                                                             Report Number:      05-11-002-06-001
                                                               U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report .............................................................................. 1



Exhibits............................................................................................................................ 5
          Exhibit 1 Reasons Why Mines Not Inspected ....................................................... 6

          Exhibit 2 Reduced S&S Rates by MSHA 30% or National Average Metrics......... 7

          Exhibit 3 Reduced S&S Rates by Various Percentages or National
             Average Metrics .............................................................................................. 8

          Exhibit 4 Average Reduction Rates .................................................................... 10

          Exhibit 5 Graphs of S&S Rates Subsequent to Receipt of Potential POV
             Notification .................................................................................................... 11




                                                                             Improvement Rates for Potential POV Mines
                                                                                          Report No 05-11-002-06-001
                                          U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




December 15, 2010

                        Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary for Mine Safety and Health
Mine Safety and Health Administration
1100 Wilson Boulevard
Arlington, Virginia 22209

On September 29, 2010, the U.S. Department of Labor’s (DOL) Office of Inspector
General (OIG) published an audit report titled In 32 Years MSHA Has Never
Successfully Exercised Its Pattern of Violations Authority (05-10-005-06-001). A portion
of that audit examined whether mines notified by MSHA of a potential Pattern of
Violations (POV) from 2007 – 2009 achieved and sustained required improvement
levels beyond the one subsequent inspection period monitored by MSHA. That analysis
showed that 94 percent of the potential POV mines monitored by MSHA satisfied
established improvement metrics after the first inspection period. However, the success
rate decreased to 89 percent after a second inspection period and further decreased to
85 percent after a third inspection period.

In response to a request from the U.S House Committee on Education and Labor, we
expanded our analyses in this area to determine the extent to which safety
improvements were maintained over a longer period of time. Specifically, for mines that
received a potential POV notification from MSHA during 2007 – 2009, we performed
analyses of MSHA’s enforcement data as of October 12, 2010, to determine the:

   1. rate at which mines met MSHA’s improvement metrics for Significant and
      Substantial (S&S) violations for up to 8 periods beyond the 90-day inspection
      period evaluated by MSHA,

   2. impact on success rates of increasing the improvement metrics, and

   3. trend in the rate of reduction of S&S violations at potential POV mines over
      subsequent inspection periods.




                                                       Improvement Rates for Potential POV Mines
                                           1                        Report No 05-11-002-06-001.
                                           U.S. Department of Labor – Office of Inspector General


Results

1. The Percentage of Mines Meeting MSHA’s Improvement Metrics Declined
   When Evaluated Beyond One Inspection Period

Our analysis showed that 94 percent of mines successfully met MSHA’s improvement
metrics after one complete inspection period, but the success rate gradually declined in
subsequent periods. After eight inspection periods, the percentage of mines meeting
MSHA’s improvement metrics had decreased to 79 percent.

During 2007 – 2009, MSHA used a computer application to produce a list of potential
POV mines on five separate occasions for the 24-month periods ending:

   •   March 31, 2007 (Cycle 1)
   •   September 30, 2007 (Cycle 2)
   •   March 31, 2008 (Cycle 3)
   •   December 31, 2008 (Cycle 4)
   •   August 31, 2009 (Cycle 5)

In total MSHA sent potential POV notification letters to a total of 68 mines. Two of these
mines subsequently ceased operations. Another had its notification withdrawn because
MSHA determined that it had been issued in error. Under the POV procedures in place
during 2007 – 2009, MSHA monitored and evaluated the rate of S&S violations at the
remaining 65 mines for the period covering one complete inspection following the
notification. To avoid a POV designation, mine operators had to meet either of the
following two improvement metrics: (1) reduce the rate of S&S citations and orders at
the mine by at least 30 percent, or (2) reduce the rate of S&S citations and orders at the
mine to at least the national average for similar mines. Ninety four percent (61 out of 65)
successfully met one of the improvement metrics.

To evaluate whether these mines maintained improved rates of S&S violations beyond
the one inspection period evaluated by MSHA, we used MSHA’s methodology to
calculate for each mine the cumulative rate of S&S violations as of the end of each
subsequent Regular Health and Safety Inspection performed by MSHA on or before
September 30, 2010 (to a maximum of 8 inspection periods). We compared the results
against the two improvement metrics used by MSHA during the 2007 – 2009 timeframe.

In reviewing the results of our analysis, it is important to note that the Federal Mine
Safety and Health Act of 1977 mandates a different inspection frequency based on the
type of mine. MSHA performs a complete inspection of each underground mine four
times per year (approximately every three months) and each surface mine or facility
twice per year (approximately every six months). Therefore, 8 complete inspections for
an underground mine would typically cover a 2-year period, while the same number of
complete inspections for a surface mine or facility would typically cover a 4-year period.
Depending on several factors — the cycle in which the mine was identified as having a
potential POV, the mine’s operating status, and changes in the owner or operator — an
individual mine may have had fewer than eight complete inspections during our analysis

                                                     Improvement Rates for Potential POV Mines
                                            2                     Report No 05-11-002-06-001.
                                                    U.S. Department of Labor – Office of Inspector General


period. Some mines had fewer than 8 completed inspections in our analysis because
they were abandoned, became idle, or had changed ownership. See Exhibit 1 for
additional information.

It is also important to note that the average S&S rate for similar mines used by MSHA
as the second improvement metric was based on the 24-month period analyzed by
MSHA in identifying potential POV mines. In monitoring mine performance over eight
subsequent inspection periods, we did not compute an updated national average for
these future time periods. As a result, in assessing a mine’s performance against the
second improvement metric, we compared the actual rate of S&S violations against the
historic national average from the original evaluation period.

The ability of all mine operators’ to meet MSHA’s POV improvement metrics up to 8
inspection periods after receiving the potential POV notification letter from MSHA fell
from 94 percent to 79 percent. Surface mine and facilities operators met MSHA’s POV
improvement metrics 100 percent of the time for 6 of the 8 inspection periods (periods 2
and 3 were 83 percent). However, the ability of underground mine operators to meet
MSHA’s POV improvement metrics declined from 92 percent to 79 percent over the 8
inspection periods. Exhibit 2 contains all the rate information for mines for each
inspection period. Exhibit 5 contains graphs showing each individual mine’s
performance over the inspection periods analyzed.

2. Changing the Improvement Standard by Increasing the Required S&S
   Reduction Rate Would Reduce the Number of Mines Meeting the Standard

Under the POV procedures in place during 2007 – 2009 1 , mine operators had to meet
one of two improvement metrics: (1) reduce the rate of S&S citations and orders at the
mine by at least 30 percent, or (2) reduce the rate of S&S citations and orders at the
mine to at least the national average for similar mines.

In most cases, MSHA’s first improvement standard (30 percent reduction in S&S rate)
was the lower standard for potential POV mines to meet. So meeting MSHA’s two-
pronged improvement metric was generally dependent on meeting the 30 percent
reduction in S&S rate. Strengthening this first standard (i.e., requiring a reduction of
more than 30 percent in the rate of S&S violations), results in a gradual decrease in the
percent of mines that successfully meet the overall improvement metrics. At the 30
percent S&S reduction rate required by MSHA during 2007-2009, 79 percent of
potential POV mines meet the standard after eight inspection periods. If the standard
required a 40 percent S&S reduction rate, the percentage of potential POV mines
meeting the standard after eight inspection periods declines to 76. At a 50 percent

1
  On September 30, 2010, MSHA announced more stringent POV improvement provisions. Under the
new provisions, mines that implement appropriate corrective action programs must achieve a 50 percent
reduction in the rate of S&S violations or a rate within the top 50 percent for all mines of similar type and
classification. Mines that do not choose to implement corrective action programs need to achieve a 70
percent or more reduction in their S&S issuance rates or a rate within the top 35 percent for all mines of
similar type and classification.

                                                                Improvement Rates for Potential POV Mines
                                                     3                       Report No 05-11-002-06-001.
                                          U.S. Department of Labor – Office of Inspector General


required S&S reduction rate, 69 percent of potential POV mines would meet the
standards after eight inspection periods. Increasing the rate above 50 percent appears
to have little additional impact, as the percentage of mines meeting the standard after
eight inspection periods remains at 69. Furthermore, requiring a reduction level greater
than 70 percent would have no further impact on success rates. Beyond the 70 percent
level, the second metric (reduction of S&S rate to the national average for similar mines)
becomes the deciding standard.

The tables in Exhibit 3 summarize the percent of mines that would have met
improvement metrics if the required reduction in S&S rate had been increased in
increments of 10 percentage points.

3. Overall, Mines Lost Some of the Gains They Initially Achieved in Reducing
   Their Rates of S&S Violations

The average improvement (reduction) in the rate of S&S violations declined when
evaluated over eight subsequent inspection periods. Mines receiving a potential POV
notification from MSHA reduced their rate of S&S violations by an average of 63 percent
after one subsequent inspection period. After the eighth inspection period, the average
reduction rate was 51 percent.

Underground mines reduced their rate of S&S violations by an average of 62 percent
after one subsequent inspection period; the average reduction rate was 51 percent after
the eighth inspection period. Surface mines and facilities reduced their rate of S&S
violations by an average of 67 percent after one subsequent inspection period; the
average reduction rate after the eighth inspection period was 58 percent. See Exhibit 4
for the rates for each inspection period.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this additional work.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                    Improvement Rates for Potential POV Mines
                                           4                     Report No 05-11-002-06-001.
           U.S. Department of Labor – Office of Inspector General




Exhibits




                     Improvement Rates for Potential POV Mines
            5                     Report No 05-11-002-06-001.
                                   U.S. Department of Labor – Office of Inspector General




                                                                             Exhibit 1

Reasons Why Mines Not Inspected

                                     # of Mines
Inspection                                        Inspection
  Period                             Ownership
           Inspected Abandoned Idled            Started/Ended Other Total
                                       Change
                                                After 09/30/10
    1          65                2                              1    68
    2          62        1       3         1                    1    68
    3          61        2       3         1                    1    68
    4          56        4       3         1           3        1    68
    5          47        5       3         1          11        1    68
    6          40        6       4         3          14        1    68
    7          31        6       4         3          23        1    68
    8          29        6       4         3          25        1    68




                                             Improvement Rates for Potential POV Mines
                                    6                     Report No 05-11-002-06-001.
                                            U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 2

Reduced S&S Rates by MSHA 30% or National Average Metrics

    Reduce Rate of S&S Violations by 30% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          92%             13           100%           65             94%
    2            50          90%             12            83%           62             89%
    3            49          86%             12            83%           61             85%
    4            48          85%             8            100%           56             88%
    5            39          85%             8            100%           47             87%
    6            35          80%             5            100%           40             83%
    7            28          79%             3            100%           31             81%
    8            28          79%             1            100%           29             79%




                                                      Improvement Rates for Potential POV Mines
                                             7                     Report No 05-11-002-06-001.
                                            U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 3

Reduced S&S Rates by Various Percentages or National Average Metrics

    Reduce Rate of S&S Violations by 40% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          85%             13            85%           65             85%
    2            50          76%             12            83%           62             77%
    3            49          86%             12            75%           61             84%
    4            48          75%             8            100%           56             79%
    5            39          69%             8            100%           47             74%
    6            35          71%             5            100%           40             75%
    7            28          79%             3            100%           31             81%
    8            28          75%             1            100%           29             76%


    Reduce Rate of S&S Violations by 50% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          79%             13            69%           65             77%
    2            50          74%             12            83%           62             76%
    3            49          82%             12            75%           61             80%
    4            48          73%             8            88%            56             75%
    5            39          67%             8            100%           47             72%
    6            35          66%             5            80%            40             68%
    7            28          71%             3            67%            31             71%
    8            28          68%             1            100%           29             69%


    Reduce Rate of S&S Violations by 60% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          73%             13            69%           65             72%
    2            50          72%             12            75%           62             73%
    3            49          73%             12            75%           61             74%
    4            48          69%             8            88%            56             71%
    5            39          67%             8            100%           47             72%
    6            35          66%             5            80%            40             68%
    7            28          71%             3            67%            31             71%
    8            28          68%             1            100%           29             69%


                                                      Improvement Rates for Potential POV Mines
                                             8                     Report No 05-11-002-06-001.
                                            U.S. Department of Labor – Office of Inspector General


                                                                        Exhibit 3, continued

Reduced S&S Rates by Various Percentages or National Average Metrics

    Reduce Rate of S&S Violations by 70% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          71%             13            62%           65             69%
    2            50          70%             12            67%           62             69%
    3            49          73%             12            50%           61             69%
    4            48          67%             8            75%            56             68%
    5            39          67%             8            88%            47             70%
    6            35          66%             5            60%            40             65%
    7            28          71%             3            67%            31             71%
    8            28          68%             1            100%           29             69%


    Reduce Rate of S&S Violations by 80% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          71%             13            54%           65             68%
    2            50          70%             12            67%           62             69%
    3            49          73%             12            50%           61             69%
    4            48          67%             8            75%            56             68%
    5            39          67%             8            88%            47             70%
    6            35          66%             5            60%            40             65%
    7            28          71%             3            67%            31             71%
    8            28          68%             1            100%           29             69%


    Reduce Rate of S&S Violations by 90% OR to National Average for Similar Mines
                                              Surface Mines /
              Underground Mines                                               All Mines
Inspection                                       Facilities
  Period         #        % Meeting           #        % Meeting          #          % Meeting
             Inspected   Either Metric   Inspected Either Metric      Inspected     Either Metric
    1            52          71%             13            54%           65             68%
    2            50          70%             12            67%           62             69%
    3            49          73%             12            50%           61             69%
    4            48          67%             8            75%            56             68%
    5            39          67%             8            88%            47             70%
    6            35          66%             5            60%            40             65%
    7            28          71%             3            67%            31             71%
    8            28          68%             1            100%           29             69%


                                                      Improvement Rates for Potential POV Mines
                                             9                     Report No 05-11-002-06-001.
                                            U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 4

Average Reduction Rates

                Average Percentage Reduction in Rate of S&S Violations
                                             Surface Mines /
              Underground Mines                                                All Mines
                                                Facilities
Inspection               Average %                    Average %                     Average %
  Period         #       Reduction in       #        Reduction in         #         Reduction in
             Inspected   Rate of S&S    Inspected Rate of S&S         Inspected     Rate of S&S
                          Violations                   Violations                    Violations
    1           52          62%             13            67%             65            63%
    2           50          58%             12            66%             62            60%
    3           49          54%             12            62%             61            56%
    4           48          52%              8            69%             56            54%
    5           39          51%              8            70%             47            54%
    6           35          50%              5            65%             40            52%
    7           28          53%              3            57%             31            53%
    8           28          51%              1            58%             29            51%




                                                      Improvement Rates for Potential POV Mines
                                             10                    Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                                             Exhibit 5

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


 Cycle 1 (04/01/05 - 03/31/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4606188
                                                          Massey Energy Company - Chess Processing (Coal - Facility)
                                                                   PPOV Monitoring Start Date = 07/16/07
                                                                         Starting S&S Rate = 19.55
                        100.00%



                         80.00%
                                                         5.66
                                                                           7.12                 6.45              6.77              6.47       6.42

                                                                                               67.03%             65.35%           66.92%    67.15%
                         60.00%                         71.03%            63.56%
                                    10.29

                         40.00%     47.37%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   08/27/07            03/24/08          09/05/08              03/31/09          09/30/09         03/31/10   09/27/10

                                      1                   2                 3                    4                  5                   6       7

                                                                                     Inspection Period
                                          Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 13.69
                                          Improvement to Reach Industry Average of 6.57


                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent reduction
                                      in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                      heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                          Improvement Rates for Potential POV Mines
                                                                                          11                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 1 (04/01/05 - 03/31/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 4608553
                                                      Massey Energy Company - Black King I North Portal (Coal - Underground)
                                                                      PPOV Monitoring Start Date = 07/02/07
                                                                           Starting S&S Rate = 12.94
                        100.00%


                         80.00%
                                                         3.67
                                                        71.61%           5.14
                         60.00%                                                          5.90          6.02              5.97
                                                                       60.32%
                                                                                       54.39%         53.45%            53.90%
                         40.00%
                                                                                                                                                     9.48
  Percent Improvement




                                                                                                                                         10.10
                                     10.57                                                                                                         26.75%
                         20.00%                                                                                                         21.94%
                                    18.32%

                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/10/07            12/05/07        03/26/08        05/21/08      09/04/08          12/29/08         03/31/09   06/26/09
                                     1                   2               3               4              5                 6                7          8


                                                                                        Inspection Period

                                              Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 9.06
                                              Improvement to Reach Industry Average of 7.23




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent reduction
                                         in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                         heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                          12                       Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification

Cycle 1 (04/01/05 - 03/31/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                 Mine ID 1509636
                                                               James River Coal Company - #77 (Coal - Underground)
                                                                      PPOV Monitoring Start Date = 07/11/07
                                                                            Starting S&S Rate = 13.19
                        100.00%



                         80.00%      3.86

                                   70.74%             5.16
                         60.00%                                                      6.22
                                                    60.87%                                         6.65                                         6.63
                                                                                                                     6.88
                                                                       7.11         52.81%                                           7.07

                         40.00%                                       46.13%                                         47.83%                     49.72%
                                                                                                   49.58%                           46.42%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   09/24/07         12/21/07         03/31/08       06/19/08       09/24/08         12/29/08        03/30/09   06/08/09
                                     1                2                3              4              5                 6               7          8


                                                                                     Inspection Period

                                         Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 9.23
                                         Improvement to Reach Industry Average of 7.23



                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent reduction
                                         in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                         heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                         13                     Report No 05-11-002-06-001.
                                                                                          U.S. Department of Labor – Office of Inspector General

                                                                                                                                     Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification

Cycle 1 (04/01/05 - 03/31/07)
                                                                       Improvement in S&S Rate After PPOV Notice
                                                                                      Mine ID 1512564
                                                                 Ben Bennett - Straight Creek #1 Mine (Coal - Underground)
                                                                          PPOV Monitoring Start Date =07/10/07
                                                                                 Starting S&S Rate =18.10
                        100.00%



                         80.00%

                                     7.27               6.73               6.44           6.87            6.78             6.94                         6.72
                                                                                                                                            6.91
                         60.00%
                                    59.83%            62.81%              64.44%         62.03%         62.55%            61.66%            61.80%     62.90%

                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   09/19/07           12/04/07           03/31/08       05/06/08        09/16/08          12/31/08          03/31/09   06/29/09
                                      1                  2                   3             4              5                  6                  7         8

                                                                                           Inspection Period

                                             Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 12.67
                                             Improvement to Reach Industry Average of 7.23



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent reduction
                                          in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                          heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                        Improvement Rates for Potential POV Mines
                                                                                           14                        Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification

Cycle 1 (04/01/05 - 03/31/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 0100851
                                                  Questor Management Company LLC et al - Oak Grove Mine (Coal - Underground)
                                                                    PPOV Monitoring Start Date = 07/10/07
                                                                         Starting S&S Rate = 12.54
                        100.00%



                         80.00%


                                                        5.11            5.24            5.45           5.20              5.28             5.29        5.22
                         60.00%
                                                       59.22%          58.19%                         58.50%            57.86%           57.81%     58.41%
                                                                                       56.55%
                         40.00%
                                     8.50
  Percent Improvement




                                    32.22%
                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   09/28/07           12/31/07        03/31/08        06/30/08       09/29/08           12/30/08         03/31/09   06/30/09
                                       1                  2               3                  4           5                 6                7          8

                                                                                         Inspection Period


                                             Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 8.78
                                             Improvement to Reach Industry Average of 7.23



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                           The number presented inside each bar of the graph represents the percent reduction
                                           in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                           heading through the ending date of the inspection period.

                                           Dates shown along the bottom of the graph represent the ending date of each
                                           inspection period.

                                           Cliffs Natural Resources became the Controller of this mine on 07/31/2007.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         15                        Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                                 Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 1 (04/01/05 - 03/31/07)
                                                                    Improvement in S&S Rate After PPOV Notice
                                                                                 Mine ID 2000422
                                                      Ontario Tilden Company; Cliffs TIOP Inc. - Tilden Mine (MNM - Surface )
                                                                      PPOV Monitoring Start Date = 08/08/07
                                                                            Starting S&S Rate = 12.68
                        100.00%



                         80.00%
                                                                                                                        5.10
                                                                                                    5.44                                 5.48        5.32

                         60.00%      7.02                                             6.69
                                                                                                                       59.76%                      58.06%
                                                                                                   57.07%                               56.80%

                         40.00%     44.64%            9.63                          47.27%
                                                                      9.76
  Percent Improvement




                         20.00%                      24.05%          23.01%


                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   09/24/07          01/04/08       05/22/08        08/28/08       01/23/09           04/30/09          03/11/10   06/09/10

                                      1                 2              3               4              5                  6                 7          8

                                                                                      Inspection Period



                                            Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 8.88
                                            Improvement to Reach Industry Average of 6.57



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent reduction
                                          in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                          heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                        16                       Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                            Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 1 (04/01/05 - 03/31/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                 Mine ID 0400011
                                                            Texas Industries Inc. - Oro Grande Quarry (MNM - Facility)
                                                                      PPOV Monitoring Start Date = 7/23/07
                                                                            Starting S&S Rate = 13.24

                        100.00%

                                                         2.32
                         80.00%
                                                        82.47%
                                                                            4.94
                                                                                               5.60
                         60.00%      6.05                                                                      6.33
                                                                          62.65%                                                7.10
                                                                                            57.70%                                          7.11

                         40.00%      54.31%                                                                   52.18%           46.39%     46.30%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                    08/09/07            12/06/07          08/26/08          01/15/09          08/27/09         03/23/10   09/01/10

                                        1                  2                 3                  4                5                  6        7

                                                                                      Inspection Period

                                            Percent Improvement in S&S Rate from PPOV Notice              30% Improvement to 9.27
                                            Improvement to Reach Industry Average of 6.99



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent reduction
                                       in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                       heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       17                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 1504469
                                                              Cemex S A - KOSMOS CEMENT CO. (MNM - Facility)
                                                                    PPOV Monitoring Start Date =03/03/08
                                                                          Starting S&S Rate = 22.66

                       100.00%



                        80.00%
                                                                                                          7.29                  6.32        6.96
                                                              9.09                 8.77
                        60.00%                                                                                                 72.11%      69.29%
                                                                                                         67.85%
                                                            59.88%                61.32%

                        40.00%
                                     15.69
 Percent Improvement




                                     30.76%
                        20.00%



                         0.00%



                        -20.00%



                        -40.00%



                        -60.00%



                        -80.00%



                       -100.00%
                                    03/06/08                07/24/08             10/02/08                04/28/09             02/24/10    09/01/10

                                       1                       2                    3                         4                  5           6

                                                                                          Inspection Period



                                           Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 16.00
                                           Improvement to Reach Industry Average of 6.68



                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent reduction
                                      in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                      heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                          18                        Report No 05-11-002-06-001.
                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                                       Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                      Improvement in S&S Rate After PPOV Notice
                                                                                    Mine ID 4601437
                                                                  CONSOL Energy Inc. - McElroy Mine (Coal - Underground)
                                                                         PPOV Monitoring Start Date =01/08/08
                                                                               Starting S&S Rate = 9.80

                        100.00%


                         80.00%


                         60.00%      4.86               4.83
                                                                           5.39
                                                                                         5.71
                                    50.44%                                                                                   5.96
                                                       50.69%                                              6.24                              6.31
                         40.00%                                           45.04%                                                                         6.69
                                                                                        41.74%                              39.15%
                                                                                                         36.34%
  Percent Improvement




                         20.00%
                                                                                                                                            35.64%
                                                                                                                                                       31.75%

                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/31/08            06/30/08          09/30/08       12/31/08         03/31/09           06/30/09        09/28/09   12/22/09

                                     1                   2                 3                4              5                  6               7          8

                                                                                            Inspection Period

                                            Percent Improvement in S&S Rate from PPOV Notice                      30% Improvement to 6.86
                                            Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent reduction
                                         in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                         heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                         Improvement Rates for Potential POV Mines
                                                                                            19                        Report No 05-11-002-06-001.
                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                       Improvement in S&S Rate After PPOV Notice
                                                                                     Mine ID 4607273
                                                                 Massey Energy Company - Justice #1 (Coal - Underground)
                                                                          PPOV Monitoring Start Date = 01/07/08
                                                                                Starting S&S Rate = 11.80
                        100.00%
                                     1.14
                                    90.30%              2.56
                         80.00%
                                                      78.34%              4.20

                         60.00%                                           64.41%         5.80           5.68
                                                                                                                         5.97             6.07

                                                                                        50.81%         51.88%                                         6.86
                                                                                                                        49.40%           48.53%
                         40.00%                                                                                                                     41.84%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   03/09/08           06/26/08           09/30/08      12/30/08       03/31/09          06/24/09         09/10/09   12/17/09
                                      1                  2                  3             4              5                 6                 7          8

                                                                                          Inspection Period


                                            Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 8.28
                                            Improvement to Reach Industry Average of 7.55



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                        The number presented inside each bar of the graph represents the percent reduction
                                        in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                        heading through the ending date of the inspection period.

                                        Dates shown along the bottom of the graph represent the ending date of each
                                        inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                            20                      Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                      Improvement in S&S Rate After PPOV Notice
                                                                                   Mine ID 4608315
                                                              Massey Energy Company - Brushy Eagle (Coal - Underground)
                                                                        PPOV Monitoring Start Date = 01/07/08
                                                                              Starting S&S Rate = 12.90
                        100.00%
                                                       1.77

                         80.00%                       86.29%
                                                                         4.17
                                                                                                                                       4.42
                                                                                        4.46                           4.96                        5.09
                                                                        67.68%                       5.29
                         60.00%                                                       65.46%                                          65.70%
                                     6.22                                                                            61.55%
                                                                                                     58.98%                                      60.52%
                                    51.77%
                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   03/19/08          06/02/08          09/22/08      12/23/08       03/20/09         06/29/09         09/30/09   12/29/09
                                      1                 2                 3              4             5                6                7          8

                                                                                        Inspection Period

                                            Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 9.03
                                            Improvement to Reach Industry Average of 7.55



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent reduction
                                          in the mine’s rate of S&S violations from the “Monitoring Start Date” shown in the
                                          heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                         21                      Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4608436
                                                  Massey Energy Company - Upper Big Branch Mine-South (Coal - Underground)
                                                                   PPOV Monitoring Start Date = 01/07/08
                                                                         Starting S&S Rate = 11.60
                        100.00%



                         80.00%



                         60.00%                         5.45
                                    6.48             53.05%
                         40.00%                                       7.40
                                    44.12%                                            7.59
  Percent Improvement




                                                                                                        9.28                                         9.67
                         20.00%                                      36.22%          34.58%
                                                                                                       19.97%
                                                                                                                                                    16.63%

                          0.00%
                                                                                                                         -2.38%           4.31%

                                                                                                                          11.88           11.10
                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   03/24/08          06/30/08       09/30/08        12/31/08          03/30/09          06/29/09         09/30/09   12/30/09

                                      1                 2              3                   4             5                  6                7          8

                                                                                           Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 8.10
                                           Improvement to Reach Industry Average of 7.55



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside or below each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                           22                       Report No 05-11-002-06-001.
                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4608645
                                                      Massey Energy Company - Twilight Mtr Surface Mine (Coal - Surface )
                                                                    PPOV Monitoring Start Date = 01/07/08
                                                                         Starting S&S Rate = 30.20

                       100.00%
                                         4.10                 4.34                   4.30                    3.89            4.39          4.69
                                        86.42%              85.63%                                         87.13%
                        80.00%
                                                                                85.76%                                      85.47%       84.48%

                        60.00%



                        40.00%
 Percent Improvement




                        20.00%



                         0.00%



                        -20.00%



                        -40.00%



                        -60.00%



                        -80.00%



                       -100.00%
                                       03/14/08            09/16/08             03/26/09                   09/30/09         03/31/10     09/29/10
                                         1                   2                       3                          4              5            6

                                                                                            Inspection Period


                                  Percent Improvement in S&S Rate from PPOV Notice               30% Improvement to 21.11
                                  Improvement to Reach Industry Average of 6.09


                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent
                                         reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                         shown in the heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                          Improvement Rates for Potential POV Mines
                                                                                            23                         Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                     Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)                                         Improvement in S&S Rate After PPOV Notice
                                                                                    Mine ID 4608890
                                                                 Peabody Energy - Rivers Edge Mine (Coal - Underground)
                                                                         PPOV Monitoring Start Date = 01/07/08
                                                                               Starting S&S Rate = 10.80
                        100.00%
                                     0.94               1.12            1.06
                                                                                        1.37             1.41
                                                                                                                            1.65
                                    91.29%             89.61%          90.20%                                                                 2.37
                                                                                       87.28%           86.93%                                           2.66
                         80.00%                                                                                            84.72%
                                                                                                                                            78.08%
                                                                                                                                                       75.38%

                         60.00%



                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   02/14/08           06/29/08        09/25/08        11/12/08         02/23/09           05/19/09          09/29/09   11/30/09
                                      1                  2                3               4                5                  6                 7          8

                                                                                        Inspection Period

                                             Percent Improvement in S&S Rate from PPOV Notice                     30% Improvement to 7.56
                                             Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                        The number presented inside each bar of the graph represents the percent
                                        reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                        shown in the heading through the ending date of the inspection period.

                                        Dates shown along the bottom of the graph represent the ending date of each
                                        inspection period.

                                        Patriot Coal Corporation became the Controller of this mine on 10/31/2007.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                          24                        Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                 Mine ID 4608994
                                                               James H Booth - Deep Mine No. 8 (Coal - Underground)
                                                                      PPOV Monitoring Start Date = 01/07/08
                                                                            Starting S&S Rate = 11.10
                       100.00%



                        80.00%
                                    3.77

                        60.00%     66.06%



                        40.00%
                                                                       8.13          7.86
 Percent Improvement




                                                      8.51                                          8.43
                                                                     26.77%         29.19%
                        20.00%                                                                                        9.23              9.38
                                                    23.33%                                         24.01%
                                                                                                                                                  9.87
                                                                                                                     16.83%           15.50%
                                                                                                                                                 11.07%
                         0.00%



                        -20.00%



                        -40.00%



                        -60.00%



                        -80.00%



                       -100.00%
                                  02/28/08          06/18/08         09/11/08       12/22/08      03/03/09          06/23/09          09/30/09   11/23/09
                                     1                 2                3              4             5                 6                 7          8

                                                                                      Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 7.79
                                           Improvement to Reach Industry Average of 7.55



                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                        25                      Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                  Mine ID 4609020
                                                                James C Justice II et al - No 65 (Coal - Underground)
                                                                      PPOV Monitoring Start Date = 01/07/08
                                                                            Starting S&S Rate = 10.10
                        100.00%



                         80.00%
                                     3.13

                                    69.06%             4.30
                         60.00%                                        4.52
                                                      57.42%          55.20%           5.54
                                                                                                      5.87               6.01            6.09
                         40.00%                                                       45.11%                                                       6.68
                                                                                                      41.92%            40.51%         39.72%
  Percent Improvement




                         20.00%                                                                                                                   33.84%


                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                   03/03/08          05/23/08        09/04/08        12/22/08        03/31/09           06/30/09       09/30/09   12/01/09
                                      1                 2               3               4               5                  6              7          8

                                                                                        Inspection Period

                                            Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 7.05
                                            Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.

                                          Mechel Oao became the Controller of this mine on 05/07/2009.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         26                        Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


 Cycle 2 (10/01/05 - 09/30/07)
                                                                    Improvement in S&S Rate After PPOV Notice
                                                                                  Mine ID 4404946
                                                              Alpha Natural Resources LLC - No 2 (Coal - Underground)
                                                                       PPOV Monitoring Start Date = 01/02/08
                                                                             Starting S&S Rate = 12.00

                        100.00%
                                    0.89                                                                                                1.77      1.83
                                   92.59%                                              2.21          2.33               1.98
                                                      3.03              2.64
                         80.00%                                                                                       83.49%          85.25%     84.71%
                                                                                     81.58%          80.60%
                                                                      77.97%
                                                    74.75%
                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   02/14/08        05/29/08           08/11/08       12/01/08       03/18/09         06/25/09         09/21/09   12/21/09
                                      1               2                  3              4              5                6                7          8

                                                                                        Inspection Period


                                          Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 8.43
                                          Improvement to Reach Industry Average of 7.55




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                        Dates shown along the bottom of the graph represent the ending date of each
                                        inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                        27                       Report No 05-11-002-06-001.
                                                                                   U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4407029
                                                              Charles D Mullins - No 1 Washer (Coal - Facility )
                                                                  PPOV Monitoring Start Date = 02/19/08
                                                                         Starting S&S Rate = 24.50
                        100.00%

                                                                                             4.57                                        4.32
                         80.00%
                                                                                             81.34%                                     82.35%

                         60.00%


                                                15.58
                         40.00%
  Percent Improvement




                         20.00%               36.39%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                               03/03/08                                      06/26/08                                  11/19/08
                                                  1                                             2                                         3

                                                                                        Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 17.18

                                        Improvement to Reach Industry Average of 7.32




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                        Improvement Rates for Potential POV Mines
                                                                                        28                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                     Improvement in S&S Rate After PPOV Notice
                                                                                    Mine ID 4407081
                                                                      Ervin Stiltner - No. 2 (Coal - Underground)
                                                                       PPOV Monitoring Start Date = 02/01/08
                                                                              Starting S&S Rate = 18.40
                        100.00%
                                      1.32
                                                        3.55            3.04            3.54           3.10             2.46              3.07       3.17
                                    92.80%
                         80.00%                                                                                        86.64%
                                                                       83.48%          80.77%         83.17%                             83.32%     82.78%
                                                       80.73%

                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/06/08           05/30/08        09/30/08        12/31/08       02/27/09          06/09/09          09/14/09   12/22/09
                                      1                  2               3               4              5                 6                 7          8

                                                                                        Inspection Period


                                             Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 12.90

                                             Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         29                        Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                                 Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                  Improvement in S&S Rate After PPOV Notice
                                                                               Mine ID 1508079
                                                        Alliance Resource Partners LP - Mine No 3 (Coal - Underground)
                                                                    PPOV Monitoring Start Date = 01/07/08
                                                                          Starting S&S Rate = 10.20

                        100.00%


                         80.00%       2.64
                                    74.14%            3.50
                                                                                    3.89              3.84             3.87             3.97
                                                                     4.13                                                                          4.13
                         60.00%                     65.67%
                                                                                    61.88%           62.32%            62.04%          61.12%
                                                                    59.53%                                                                        59.51%

                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/31/08        06/30/08        09/30/08        12/31/08          03/31/09         06/25/09         09/28/09   12/31/09
                                       1              2               3               4                 5                6                7          8

                                                                                         Inspection Period


                                         Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 7.17
                                         Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                        The number presented inside each bar of the graph represents the percent
                                        reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                        shown in the heading through the ending date of the inspection period.

                                        Dates shown along the bottom of the graph represent the ending date of each
                                        inspection period.




                                                                                                     Improvement Rates for Potential POV Mines
                                                                                         30                       Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                    Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 1518381
                                                       Massey Energy Company - Taylor Fork Energy (Coal - Underground)
                                                                    PPOV Monitoring Start Date = 01/02/08
                                                                         Starting S&S Rate = 14.10
                        100.00%
                                     2.11              1.45            1.62
                                                     89.74%          88.50%               2.99
                         80.00%     85.01%                                                               3.82
                                                                                     78.78%                                4.27             4.40
                                                                                                       72.91%                                         4.98
                                                                                                                          69.75%          68.83%
                         60.00%                                                                                                                      64.65%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/24/08          06/30/08        09/29/08        12/31/08          03/31/09          06/30/09         09/15/09   12/31/09
                                      1                 2               3                  4              5                 6                7           8

                                                                                          Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                      30% Improvement to 9.87
                                          Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                           31                       Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                 Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 1502502
                                                      James River Coal Company - Shamrock #18 Series (Coal - Underground)
                                                                     PPOV Monitoring Start Date = 01/15/08
                                                                           Starting S&S Rate = 17.60

                        100.00%


                         80.00%


                         60.00%                        7.44             8.39
                                                      57.70%                           9.19                                              9.24
                                    10.43                                                             9.84             10.23                        9.14
                                                                      52.32%
                         40.00%                                                      47.79%                                             47.49%     48.09%
                                                                                                     44.07%           41.89%
                                    40.71%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/31/08          06/24/08        09/30/08        12/31/08       03/11/09          06/08/09          09/22/09   12/22/09
                                      1                 2               3               4              5                 6                 7          8

                                                                                        Inspection Period


                                            Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 12.33

                                            Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                     Improvement Rates for Potential POV Mines
                                                                                        32                        Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 1511065
                                                           James River Coal Company - #4 (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 01/19/08
                                                                        Starting S&S Rate = 18.40
                        100.00%


                         80.00%                                            4.71                           4.99
                                                                                                                                     4.90

                                           7.86                           74.40%                          72.86%                   73.34%
                         60.00%
                                          57.30%
                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         03/18/08                        06/28/08                         09/20/08                 11/18/08
                                            1                              2                                3                        4

                                                                                    Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 12.87
                                        Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                Improvement Rates for Potential POV Mines
                                                                                     33                      Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                     Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                   Mine ID 1518182
                                                           Horace Garrison Hill - D & C Mining Corp. (Coal - Underground)
                                                                       PPOV Monitoring Start Date = 01/22/08
                                                                             Starting S&S Rate = 20.50
                        100.00%


                         80.00%


                         60.00%
                                                     10.88             10.19
                                    11.59                                                                                  11.17            11.27      11.16
                                                                      50.28%          13.25                12.79
                         40.00%                     46.93%                                                                45.52%           45.00%     45.56%
                                    43.44%
  Percent Improvement




                                                                                     35.38%              37.60%
                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   03/12/08         06/30/08         09/09/08        12/30/08            01/30/09         05/28/09         09/30/09   12/31/09
                                      1                2                3                 4                 5                6                7          8

                                                                                              Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                      30% Improvement to 14.33
                                          Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                         Improvement Rates for Potential POV Mines
                                                                                          34                          Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                     Improvement in S&S Rate After PPOV Notice
                                                                                   Mine ID 1518267
                                                                      Ben Bennett - RB #10 (Coal - Underground)
                                                                        PPOV Monitoring Start Date = 01/22/08
                                                                             Starting S&S Rate = 24.70
                        100.00%


                         80.00%                         7.55            6.61                           6.69             6.85               7.05      7.06
                                                                                       7.85

                                     9.66             69.42%          73.24%                                                                        71.40%
                         60.00%                                                       68.20%         72.91%            72.26%            71.47%
                                    60.88%

                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   02/14/08           05/28/08        09/30/08        12/09/08       03/17/09          06/09/09          08/25/09   12/08/09


                                      1                  2               3               4              5                 6                 7          8


                                                                                        Inspection Period



                                             Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 17.30

                                             Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         35                        Report No 05-11-002-06-001.
                                                                                   U.S. Department of Labor – Office of Inspector General

                                                                                                                                 Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 2 (10/01/05 - 09/30/07)
                                                                Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 4003237
                                                       National Coal Corporation - Mine No. 11 (Coal - Underground)
                                                                  PPOV Monitoring Start Date = 01/11/08
                                                                         Starting S&S Rate = 10.20
                        100.00%

                                        2.05
                         80.00%
                                       79.90%                                                                          3.46                3.42
                                                                 3.61                         3.62
                         60.00%                                 64.65%                       64.55%                    66.09%              66.52%



                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                       03/17/08                 06/23/08                     09/30/08                 12/31/08            02/17/09
                                         1                        2                            3                        4                   5

                                                                                    Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 7.13
                                        Improvement to Reach Industry Average of 7.55




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                        Improvement Rates for Potential POV Mines
                                                                                        36                           Report No 05-11-002-06-001.
                                                                                          U.S. Department of Labor – Office of Inspector General

                                                                                                                                    Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                        Improvement in S&S Rate After PPOV Notice
                                                                                     Mine ID 4608194
                                                                 United Company - Pleasant Hill Mine (Coal - Underground)
                                                                          PPOV Monitoring Start Date = 07/02/08
                                                                                Starting S&S Rate = 12.32
                        100.00%


                         80.00%     3.20                                                 3.73                                             3.57
                                                                          3.98                          3.74              4.15                       3.71
                                                       4.43
                                    74.03%
                         60.00%                                          67.73%          69.76%          69.65%                           71.04%     69.90%
                                                       64.08%                                                             66.30%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/15/08           12/17/08           03/31/09       06/15/09       09/30/09          12/30/09        03/25/10   06/29/10

                                     1                  2                  3               4              5                 6               7          8

                                                                                           Inspection Period




                                           Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 8.62
                                           Improvement to Reach Industry Average of 7.31




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent
                                         reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                         shown in the heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.

                                         Metinvest B V became the Controller of this mine on 04/30/2009.




                                                                                                        Improvement Rates for Potential POV Mines
                                                                                           37                        Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


 Cycle 3 (04/01/06 - 03/31/08)                                    Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 4608759
                                                  Franklin D Robertson & James O Bunn et al - Eagle Mine (Coal - Underground)
                                                                     PPOV Monitoring Start Date = 07/02/08
                                                                           Starting S&S Rate = 18.43
                        100.00%

                                    3.29
                         80.00%
                                    82.15%            5.39
                                                                      6.58             6.83         6.25             6.30              6.18        6.13
                                                      70.76%
                         60.00%
                                                                     64.32%          62.93%         66.11%           65.83%           66.47%
                                                                                                                                                 66.74%
                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/12/08          12/16/08        03/17/09        06/29/09      09/30/09         12/02/09          03/31/10   06/10/10
                                     1                 2               3               4              5                6                 7          8


                                                                                      Inspection Period


                                           Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 12.90

                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent
                                         reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                         shown in the heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.

                                         Robert E Ellis became the Controller of this mine on 04/01/2008.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                           38                    Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                    Improvement in S&S Rate After PPOV Notice
                                                                                  Mine ID 4608994
                                                                James H Booth - Deep Mine No. 8 (Coal - Underground)
                                                                       PPOV Monitoring Start Date = 07/17/08
                                                                             Starting S&S Rate = 14.31
                        100.00%

                                    3.61
                         80.00%

                                   74.77%
                                                      7.06
                         60.00%

                                                                        8.38
                                                     50.64%                           9.61           9.73
                         40.00%                                                                                           10.34            10.91       11.09
                                                                      41.44%
  Percent Improvement




                         20.00%                                                      32.87%         31.99%
                                                                                                                        27.75%            23.75%     22.47%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/11/08          12/22/08         03/03/09       06/23/09      09/30/09             11/23/09          02/26/10   06/22/10
                                      1                2                 3               4                 5                 6                 7         8

                                                                                       Inspection Period


                                           Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 10.02

                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                         39                      Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                    Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                   Improvement in S&S Rate After PPOV Notice
                                                                                  Mine ID 4609020
                                                                James C Justice II et al - No. 65 (Coal - Underground)
                                                                      PPOV Monitoring Start Date = 07/21/08
                                                                            Starting S&S Rate = 10.09
                        100.00%


                         80.00%
                                   3.49


                         60.00%    65.41%


                         40.00%                       6.97              7.13           6.95           6.90               7.61           7.71       7.98
  Percent Improvement




                         20.00%                       30.88%          29.29%          31.09%          31.64%             24.62%        23.55%
                                                                                                                                                  20.88%

                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/04/08          12/22/08         03/31/09        06/30/09        09/30/09           12/01/09      03/23/10   06/24/10
                                     1                 2                3               4                5                  6             7          8

                                                                                       Inspection Period


                                           Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 7.06

                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.

                                          Mechel Oao became the Controller of this mine on 05/07/2009.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                           40                      Report No 05-11-002-06-001.
                                                                                          U.S. Department of Labor – Office of Inspector General

                                                                                                                                       Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                      Improvement in S&S Rate After PPOV Notice
                                                                                      Mine ID 4407137
                                                                Ervin Stiltner; Keith Stiltner - No. 2 (Coal - Underground)
                                                                          PPOV Monitoring Start Date = 08/25/08
                                                                                 Starting S&S Rate = 12.85

                        100.00%
                                                                                         3.18              3.21               3.33
                                                                                                                                             3.58       3.65
                                                       3.93              3.84
                         80.00%

                                                                                         75.23%          75.02%             74.07%          72.17%     71.59%
                                    6.08                                70.15%
                         60.00%                       69.44%

                                    52.68%
                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/09/08          11/20/08           02/24/09        05/27/09         09/23/09           11/27/09        02/23/10   06/21/10
                                     1                  2                  3               4                5                  6               7          8


                                                                                          Inspection Period


                                           Percent Improvement in S&S Rate from PPOV Notice                       30% Improvement to 9.00
                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent
                                         reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                         shown in the heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                         Improvement Rates for Potential POV Mines
                                                                                           41                         Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                           Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 1509571
                                                     Alliance Resource Partners LP - Mine No. 2 (Coal - Underground)
                                                                  PPOV Monitoring Start Date = 07/02/08
                                                                        Starting S&S Rate = 10.95
                        100.00%
                                      1.38

                                       87.40%                                                                     2.85
                         80.00%                                                         3.08                                          2.94
                                                               3.84
                                                                                          71.83%                 73.99%             73.12%
                         60.00%                                64.93%


                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                      09/10/08                 12/31/08                 03/31/09                06/23/09            07/29/09
                                        1                        2                         3                       4                   5

                                                                                  Inspection Period
                                       Percent Improvement in S&S Rate from PPOV Notice               30% Improvement to 7.66
                                       Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                   42                           Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 1510271
                                                                Clark D Pergrem - #1 Plant (Coal - Facility)
                                                                 PPOV Monitoring Start Date = 07/17/08
                                                                        Starting S&S Rate = 21.86
                        100.00%
                                                                                                                                         3.99
                                      4.86
                                                                                                                      5.41
                         80.00%                                 6.56
                                       77.77%                                              6.76
                                                                                                                                         81.74%

                                                                                           69.08%                     75.25%
                         60.00%                                 70.00%



                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                      09/04/08                 02/04/09                    06/01/09                  03/29/10            08/19/10

                                       1                          2                          3                          4                  5

                                                                                       Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 15.30
                                       Improvement to Reach Industry Average of 6.81




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                   43                              Report No 05-11-002-06-001.
                                                                                       U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                     Improvement in S&S Rate After PPOV Notice
                                                                                   Mine ID 1517651
                                                                Massey Energy Company - Mine #1 (Coal - Underground)
                                                                        PPOV Montioring Start Date = 07/01/08
                                                                              Starting S&S Rate = 11.73
                        100.00%


                         80.00%

                                                                                                                         4.97            4.62
                                                                                                                                                    4.98
                                                                                                       5.36
                         60.00%                                                       5.71
                                                                        6.82                                            57.62%           60.59%     57.53%
                                    7.96              7.60                                             54.33%
                                                                                     51.32%
                         40.00%
  Percent Improvement




                                   32.14%            35.24%            41.86%
                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/10/08          12/31/08          03/27/09      06/08/09         09/30/09         12/31/09         03/31/10   06/29/10

                                     1                2                 3             4                 5                6                7          8

                                                                                          Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 8.21
                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                           The number presented inside each bar of the graph represents the percent
                                           reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                           shown in the heading through the ending date of the inspection period.

                                           Dates shown along the bottom of the graph represent the ending date of each
                                           inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                           44                       Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 1517165
                                                       Cumberland Resources Corporation - Mine # 1 (Coal - Underground)
                                                                   PPOV Monitoring Start Date = 07/14/08
                                                                          Starting S&S Rate = 9.61
                        100.00%

                                   2.36              2.19            2.24            2.26           2.35              2.06            2.11       2.17

                         80.00%
                                                     77.26%         76.65%           76.45%         75.59%           78.57%           78.02%     77.42%
                                   75.44%
                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/09/08         12/29/08        03/31/09        06/29/09       09/24/09         12/31/09         03/31/10   06/30/10
                                      1                2               3                  4           5                 6                7          8

                                                                                      Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 6.73

                                          Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.

                                          Massey Energy Company became the Controller of this mine on 04/19/2010.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                          45                     Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                    Improvement in S&S Rate After PPOV Notice
                                                                                  Mine ID 1517478
                                                                James River Coal Company - #75 (Coal - Underground)
                                                                       PPOV Monitoring Start Date = 07/11/08
                                                                              Starting S&S Rate = 9.16
                         100.00%


                          80.00%                      3.13             3.07            3.09
                                    3.49
                                                                                                       3.79             3.91
                                                                                                                                          4.30        4.36
                          60.00%                      65.87%           66.45%         66.30%
                                    61.90%
                                                                                                     58.66%             57.26%
                                                                                                                                         53.06%     52.38%
                          40.00%
   Percent Improvement




                          20.00%


                           0.00%


                          -20.00%


                          -40.00%


                          -60.00%


                          -80.00%


                         -100.00%
                                    09/17/08         12/31/08         03/27/09       06/25/09       09/30/09           12/29/09         03/31/10   06/23/10
                                      1               2                 3               4             5                    6                7         8


                                                                                        Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 6.41

                                           Improvement to Reach Industry Average of 7.31




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                          The number presented inside each bar of the graph represents the percent
                                          reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                          shown in the heading through the ending date of the inspection period.

                                          Dates shown along the bottom of the graph represent the ending date of each
                                          inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                        46                       Report No 05-11-002-06-001.
                                                                                         U.S. Department of Labor – Office of Inspector General

                                                                                                                                   Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                      Improvement in S&S Rate After PPOV Notice
                                                                                      Mine ID 1518182
                                                              Horace Garrison Hill - D &C Mining Corp. (Coal - Underground)
                                                                         PPOV Monitoring Start Date = 07/09/08
                                                                               Starting S&S Rate = 18.38

                        100.00%


                         80.00%

                                    7.80
                         60.00%
                                    57.56%
                                                                                        11.39          11.44             11.26
                         40.00%                                                                                                            13.00
                                                                                                       37.73%           38.72%                        14.16
                                                                                        38.05%
  Percent Improvement




                         20.00%                                         15.04                                                             29.25%
                                                      17.08                                                                                          22.98%
                                                                        18.19%
                                                       7.09%
                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/09/08           12/30/08          01/30/09       05/28/09       09/30/09          12/31/09          03/31/10   05/26/10
                                     1                  2                 3              4               5                6                 7           8

                                                                                         Inspection Period


                                            Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 12.87

                                            Improvement to Reach Industry Average of 7.31




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                           The number presented inside each bar of the graph represents the percent
                                           reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                           shown in the heading through the ending date of the inspection period.

                                           Dates shown along the bottom of the graph represent the ending date of each
                                           inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                             47                     Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                                  Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                  Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 1518861
                                                                James H Hurley - Mine No. 1 (Coal - Underground)
                                                                    PPOV Monitoring Start Date = 07/09/08
                                                                          Starting S&S Rate = 15.36
                        100.00%


                                    3.88
                         80.00%
                                                     4.70
                                    74.74%                            5.19            5.37
                                                                                                      6.40              6.47
                                                      69.39%                                                                              6.85
                         60.00%                                      66.20%          65.02%

                                                                                                     58.31%            57.91%            55.42%     10.28
                         40.00%
  Percent Improvement




                                                                                                                                                    33.07%
                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                   09/09/08          12/08/08        03/31/09       06/30/09         08/28/09          11/17/09          02/02/10   06/30/10

                                     1                 2               3             4                 5                  6                7           8

                                                                                         Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 10.75

                                           Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                         The number presented inside each bar of the graph represents the percent
                                         reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                         shown in the heading through the ending date of the inspection period.

                                         Dates shown along the bottom of the graph represent the ending date of each
                                         inspection period.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         48                        Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                            Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                           Mine ID 0500266
                                                              GCC of America - King I (Coal - Underground)
                                                                PPOV Monitoring Start Date = 07/10/08
                                                                      Starting S&S Rate = 10.66

                        100.00%


                         80.00%

                                                                                                                                     4.60
                         60.00%                5.15
                                                                                             5.79
                                                                                                                                    56.87%
                                               51.69%
                         40.00%                                                              45.71%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                              09/09/08                                      12/30/08                                03/31/09

                                                 1                                             2                                       3

                                                                                   Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 7.46

                                       Improvement to Reach Industry Average of 7.31




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       49                           Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                                Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 2000422
                                                   Ontario Tilden Company; Cliffs TIOP Inc - Tilden Mine (MNM - Surface)
                                                                   PPOV Monitoring Start Date = 08/04/08
                                                                        Starting S&S Rate = 9.71


                       100.00%
                                                                1.56
                                      1.98                                                  1.97
                        80.00%

                                      79.61%                   83.95%                                               3.40                 3.41
                                                                                            79.69%
                        60.00%
                                                                                                                     64.97%
                                                                                                                                        64.86%

                        40.00%
 Percent Improvement




                        20.00%



                         0.00%



                        -20.00%



                        -40.00%



                        -60.00%



                        -80.00%



                       -100.00%
                                     08/28/08                  01/23/09                     04/30/09                03/11/10            06/09/10
                                        1                        2                             3                       4                   5
                                                                                Inspection Period

                                      Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 6.80

                                      Improvement to Reach Industry Average of 5.79



                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       50                           Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 3 (04/01/06 - 03/31/08)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 1505484
                                              Carmeuse Holding SA; Lafarge SA - Plant Black River Operations (MNM - Facility)
                                                                 PPOV Monitoring Start Date = 07/28/08
                                                                        Starting S&S Rate = 9.67

                        100.00%
                                                                                             0.50
                                       0.00                      0.88
                                                                                            94.84%
                                      100.00%                   90.93%                                               1.69                1.96
                         80.00%
                                                                                                                     82.56%
                                                                                                                                         79.75%

                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                      07/31/08                  10/17/08                    04/18/09                 01/19/10            06/23/10
                                       1                         2                           3                        4                     5

                                                                                   Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 6.77

                                       Improvement to Reach Industry Average of 6.26




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       51                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                                 Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 4609136
                                                        Coalfield Transport Inc - Broad Run Mine (Coal - Underground)
                                                                     PPOV Monitoring Start Date = 04/01/09
                                                                           Starting S&S Rate = 9.82


                        100.00%



                         80.00%      2.70

                                     72.51%
                         60.00%



                         40.00%                             6.48
  Percent Improvement




                         20.00%                             34.03%               8.15
                                                                                                       8.80
                                                                                 16.97%                                                   9.28
                                                                                                                             9.51
                                                                                                        10.39%
                          0.00%                                                                                              3.16%        5.48%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                    06/10/09               09/30/09             12/29/09               03/31/10              06/07/10    09/27/10
                                      1                      2                     3                        4                  5           6

                                                                                        Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 6.87
                                          Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                     Improvement Rates for Potential POV Mines
                                                                                         52                       Report No 05-11-002-06-001.
                                                                                   U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                                Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4603755
                                                         Massey Energy Company - Liberty Processing (Coal - Facility)
                                                                   PPOV Monitoring Start Date = 04/07/09
                                                                         Starting S&S Rate = 22.87
                        100.00%


                         80.00%

                                               8.96
                         60.00%
                                              60.82%

                         40.00%
                                                                                           16.47                                   17.26
  Percent Improvement




                         20.00%                                                           27.98%
                                                                                                                                   24.52%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                              04/20/09                                    12/10/09                                 05/11/10
                                               1                                           2                                          3


                                                                                    Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 16.01

                                       Improvement to Reach Industry Average of 6.28




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                     Improvement Rates for Potential POV Mines
                                                                                     53                           Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                              Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                                Improvement in S&S Rate After PPOV Notice
                                                                             Mine ID 4607009
                                                         Massey Energy Company - Castle Mine (Coal - Underground)
                                                                  PPOV Monitoring Start Date = 04/07/09
                                                                         Starting S&S Rate = 9.90
                         100.00%


                                                            2.05                                         2.24               2.25        2.03
                          80.00%                                                 2.40
                                                           79.33%                                                           77.31%      79.53%
                                                                                75.74%               77.33%
                                      3.80
                          60.00%
                                      61.62%


                          40.00%
   Percent Improvement




                          20.00%



                           0.00%



                          -20.00%



                          -40.00%



                          -60.00%



                          -80.00%



                         -100.00%
                                      06/01/09             09/30/09             12/23/09             03/22/10              06/28/10     09/30/10
                                        1                    2                    3                    4                      5             6


                                                                                     Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 6.93
                                          Improvement to Reach Industry Average of 6.75




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                        54                      Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                             Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                           Mine ID 4608249
                                                             Rhonda Marcum - Surface No. 1 (Coal - Surface)
                                                                 PPOV Monitoring Start Date = 04/06/09
                                                                      Starting S&S Rate = 28.23

                        100.00%
                                            7.04

                         80.00%
                                                                                             10.62                                   11.09
                                               75.06%
                         60.00%                                                             62.38%
                                                                                                                                      60.72%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%


                        -100.00%
                                              04/27/09                                      11/30/09                                 05/04/10
                                                   1                                          2                                         3

                                                                                  Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 19.76
                                       Improvement to Reach Industry Average of 5.99




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       55                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                                  Improvement in S&S Rate After PPOV Notice
                                                                               Mine ID 4406685
                                                             United Company - Paw Paw Mine (Coal - Underground)
                                                                     PPOV Monitoring Start Date = 04/13/09
                                                                          Starting S&S Rate = 12.47


                        100.00%


                         80.00%
                                     4.16                   4.16

                         60.00%      66.64%                 66.61%                5.58
                                                                                 55.21%
                         40.00%
                                                                                                         9.42                 8.49        8.68
  Percent Improvement




                         20.00%                                                                                               31.93%      30.40%
                                                                                                        24.50%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                    05/28/09                08/28/09             12/10/09               03/26/10             06/15/10    09/23/10

                                      1                        2                    3                        4                  5           6

                                                                                         Inspection Period

                                          Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 8.73
                                          Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.

                                      Metinvest B V became the Controller of this mine on 04/30/2009.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                         56                        Report No 05-11-002-06-001.
                                                                                U.S. Department of Labor – Office of Inspector General

                                                                                                                         Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                             Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 4406866
                                                  Robin M Lambert; Philip T Lambert - Mine No. 2 (Coal - Underground)
                                                               PPOV Monitoring Start Date = 04/13/09
                                                                      Starting S&S Rate = 14.44


                        100.00%
                                                        0.00                                                            0.00
                                                       100.00%                                                      100.00%
                         80.00%



                         60.00%



                         40.00%
  Percent Improvement




                         20.00%



                          0.00%



                         -20.00%



                         -40.00%



                         -60.00%



                         -80.00%



                        -100.00%
                                                       05/26/09                                                     07/17/09
                                                           1                    Inspection Period                          2


                                         Percent Improvement in S&S Rate from PPOV Notice       30% Improvement to 10.11
                                         Improvement to Reach Industry Average of 6.75



                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                              Improvement Rates for Potential POV Mines
                                                                                 57                        Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 4406947
                                                             James A Sigmon - #1 Mine (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 04/13/09
                                                                        Starting S&S Rate = 9.49

                        100.00%
                                       1.28                     1.34

                         80.00%        86.51%                   85.87%


                         60.00%                                                              4.61

                                                                                            51.46%
                         40.00%                                                                                                             7.23
                                                                                                                      6.59
  Percent Improvement




                         20.00%                                                                                      30.56%
                                                                                                                                         23.85%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                      06/03/09                 09/10/09                     12/22/09                 03/29/10            06/21/10
                                        1                        2                            3                         4                   5


                                                                                  Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                   30% Improvement to 6.64
                                       Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.

                                      James C Justice II became the Controller of this mine on 07/28/2010.




                                                                                                       Improvement Rates for Potential POV Mines
                                                                                       58                           Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                             Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                           Mine ID 1517651
                                                         Massey Energy Company - Mine #1 (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 03/30/09
                                                                       Starting S&S Rate = 9.86



                        100.00%

                                     2.23
                         80.00%                           2.94                 3.15                   3.05
                                     77.38%
                                                                                                                             3.92
                                                          70.21%               68.06%                69.06%                              4.09
                         60.00%
                                                                                                                             60.29%     58.48%
                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                     06/08/09            09/30/09              12/31/09              03/31/10               06/29/10    09/30/10
                                       1                   2                     3                     4                       5           6

                                                                                       Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 6.90
                                       Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                       59                       Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                              Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 1509636
                                                          James River Coal Company - #77 (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 04/01/09
                                                                       Starting S&S Rate = 10.02


                        100.00%


                         80.00%
                                                           3.18
                                     3.58
                                                         68.26%
                         60.00%      64.27%


                         40.00%
  Percent Improvement




                                                                                                                             8.17         7.90
                         20.00%                                                 8.75                   8.89
                                                                                                                                         21.14%
                                                                                                                            18.45%
                                                                               12.72%                 11.25%
                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                    06/08/09             08/24/09             12/30/09                03/16/10              06/28/10    09/29/10

                                      1                    2                    3                          4                  5           6
                                                                                       Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 7.01
                                       Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                       60                        Report No 05-11-002-06-001.
                                                                                     U.S. Department of Labor – Office of Inspector General

                                                                                                                                Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                           Mine ID 1518924
                                                       Broe Companies Inc - Butcher Branch (Coal - Underground)
                                                                PPOV Monitoring Start Date = 04/01/09
                                                                      Starting S&S Rate = 11.84


                        100.00%
                                       1.22

                         80.00%        89.70%

                                                                 4.48                       4.55
                                                                                                                      5.01
                         60.00%
                                                               62.16%                      61.58%
                                                                                                                     57.65%                 7.72

                         40.00%
  Percent Improvement




                                                                                                                                         34.78%
                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                      05/27/09                 09/29/09                    12/21/09                  03/11/10            06/22/10
                                         1                        2                           3                         4                   5

                                                                                     Inspection Period


                                     Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 8.29

                                     Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.

                                      Douglas McClain and Jim Miceli became the Controller of this mine on 07/28/2010.




                                                                                                      Improvement Rates for Potential POV Mines
                                                                                      61                           Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                             Improvement in S&S Rate After PPOV Notice
                                                                           Mine ID 4202074
                                                    America West Resources, Inc. - Horizon Mine (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 04/22/09
                                                                      Starting S&S Rate = 14.56



                        100.00%


                         80.00%


                         60.00%

                                                                                8.35                                           8.86
                                                           9.31                                            9.08                            9.17
                         40.00%      9.77                                      42.65%                  37.62%                             37.04%
                                                                                                                              39.17%
  Percent Improvement




                                     32.90%               36.08%
                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                    06/09/09             09/30/09              12/30/09               03/30/10               06/28/10    09/30/10
                                       1                    2                     3                     4                      5             6

                                                                                       Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                     30% Improvement to 10.19
                                        Improvement to Reach Industry Average of 6.75




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                    Improvement Rates for Potential POV Mines
                                                                                       62                        Report No 05-11-002-06-001.
                                                                                  U.S. Department of Labor – Office of Inspector General

                                                                                                                         Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                               Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 0402848
                                                                Imerys S A - Lompoc Plant (MNM - Surface)
                                                                  PPOV Monitoring Start Date = 05/19/09
                                                                         Starting S&S Rate = 7.50


                        100.00%

                                               1.72
                         80.00%
                                              77.07%
                         60.00%
                                                                                        3.91


                         40.00%                                                           47.81%                                  5.14
  Percent Improvement




                         20.00%                                                                                                  31.49%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                              05/28/09                                  12/17/09                                 09/02/10
                                                 1                                         2                                        3


                                                                                   Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 5.25
                                       Improvement to Reach Industry Average of 4.09




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                   63                           Report No 05-11-002-06-001.
                                                                                        U.S. Department of Labor – Office of Inspector General

                                                                                                                               Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 4 (01/01/07- 12/31/08)
                                                                Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 2602512
                                                             Newmont Mining Corp. - Leeville (MNM - Underground)
                                                                   PPOV Monitoring Start Date = 05/27/09
                                                                          Starting S&S Rate = 6.82


                        100.00%


                         80.00%


                         60.00%
                                     4.24

                         40.00%
                                     37.83%
  Percent Improvement




                         20.00%                                                    5.47
                                                                                                                                5.95      6.02
                                                                                  19.79%                6.47
                                                                                                                              12.81%     11.73%
                          0.00%                                                                          5.14%
                                                             -0.65%

                         -20.00%                              6.86


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                     06/11/09                07/27/09             11/12/09              02/08/10              05/13/10   09/14/10


                                       1                       2                    3                        4                  5           6

                                                                                         Inspection Period

                                           Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 4.77
                                           Improvement to Reach Industry Average of 3.83




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside or below each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date” shown
                                      in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                     Improvement Rates for Potential POV Mines
                                                                                         64                       Report No 05-11-002-06-001.
                                                                                   U.S. Department of Labor – Office of Inspector General

                                                                                                                         Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 5 (09/01/07 - 08/31/09)
                                                             Improvement in S&S Rate After PPOV Notice
                                                                          Mine ID 2300457
                                                          Renco Group - Buick Mine/Mill (MNM - Underground)
                                                                PPOV Monitoring Start Date = 11/02/09
                                                                      Starting S&S Rate = 5.95
                        100.00%


                         80.00%


                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%

                                        -40.67%
                                                                                                                                 -42.64%
                         -40.00%
                                          8.37                                                                                     8.49

                         -60.00%                                        -66.68%
                                                                                                         -70.92%
                                                                          9.92
                         -80.00%                                                                          10.17



                        -100.00%
                                        11/12/09                        01/28/10                         04/15/10                08/19/10

                                           1                               2                                3                       4
                                                                                   Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 4.17
                                       Improvement to Reach Industry Average of 4.44




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                Improvement Rates for Potential POV Mines
                                                                                    65                       Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 5 (09/01/07 - 08/31/09)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 4608808
                                                       Massey Energy Company - Ruby Energy (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 10/21/09
                                                                       Starting S&S Rate = 20.32
                        100.00%


                         80.00%


                                                                          8.54
                         60.00%                                                                           8.99                      9.43
                                                                          57.99%                         55.78%
                                          12.06                                                                                    53.60%
                         40.00%
                                         40.65%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         12/29/09                        03/26/10                        06/02/10                  09/23/10
                                            1                               2                               3                         4



                                                                                    Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 14.22

                                        Improvement to Reach Industry Average of 6.22




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                Improvement Rates for Potential POV Mines
                                                                                     66                      Report No 05-11-002-06-001.
                                                                                      U.S. Department of Labor – Office of Inspector General

                                                                                                                            Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification



 Cycle 5 (09/01/07 - 08/31/09)                                    Improvement in S&S Rate After PPOV Notice
                                                                                Mine ID 4608949
                                                  Clarence R Peters; Richard N Nester - Winifrede 12 Mine (Coal - Underground)
                                                                     PPOV Monitoring Start Date = 10/21/09
                                                                            Starting S&S Rate = 11.13
                        100.00%


                         80.00%


                         60.00%


                         40.00%
  Percent Improvement




                                                                            8.78
                         20.00%            9.26                                                              9.43
                                                                                                                                      9.59
                                                                           21.10%
                                          16.80%                                                            15.29%                  13.79%
                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         12/03/09                          03/23/10                         04/29/10                08/17/10

                                            1                                 2                                3                       4
                                                                                      Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                  30% Improvement to 7.79
                                        Improvement to Reach Industry Average of 6.22




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                       67                       Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 5 (09/01/07 - 08/31/09)                                  Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 4609221
                                                         Massey Energy Company - Slabcamp (Coal - Underground)
                                                                  PPOV Monitoring Start Date = 10/22/09
                                                                        Starting S&S Rate = 9.53
                        100.00%
                                                                                                          1.62
                                          1.88
                                                                           2.25
                         80.00%                                                                          83.02%
                                          80.27%
                                                                          76.34%                                                    3.64

                         60.00%
                                                                                                                                   61.81%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         12/22/09                        03/24/10                        05/20/10                 09/30/10

                                            1                               2                               3                        4

                                                                                    Inspection Period


                                        Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 6.67
                                        Improvement to Reach Industry Average of 6.22




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                  Improvement Rates for Potential POV Mines
                                                                                     68                        Report No 05-11-002-06-001.
                                                                                   U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 5 (09/01/07 - 08/31/09)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                              Mine ID 4406804
                                                        Massey Energy Company - Tiller No 1 (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 10/23/09
                                                                       Starting S&S Rate = 13.79
                        100.00%


                         80.00%


                                                                           6.62                           6.72
                         60.00%
                                                                                                                                    6.88

                                                                          52.01%                         51.30%
                         40.00%                                                                                                   50.11%
  Percent Improvement




                         20.00%            11.51

                                         16.53%
                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         11/30/09                       03/29/10                         06/01/10                09/09/10

                                             1                               2                               3                      4

                                                                                   Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                30% Improvement to 9.65
                                       Improvement to Reach Industry Average of 6.22




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                Improvement Rates for Potential POV Mines
                                                                                       69                    Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


Cycle 5 (09/01/07 - 08/31/09)
                                                             Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 1518775
                                                       James River Coal Company - Mine #15 (Coal - Underground)
                                                                PPOV Monitoring Start Date = 10/21/09
                                                                       Starting S&S Rate = 13.33

                        100.00%

                                                                          2.41
                                           3.08                                                             2.74
                         80.00%
                                                                          81.89%                           79.42%                   3.92
                                         76.89%
                                                                                                                                  70.59%
                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         12/18/09                        03/30/10                         06/29/10                09/29/10

                                            1                               2                                3                       4

                                                                                    Inspection Period


                                       Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 9.33
                                       Improvement to Reach Industry Average of 6.22




                               Notes: The number presented above each bar of the graph is the actual rate of S&S
                                      violations from the “Monitoring Start Date” shown in the heading through the ending
                                      date of the inspection period.

                                       The number presented inside each bar of the graph represents the percent
                                       reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                       shown in the heading through the ending date of the inspection period.

                                       Dates shown along the bottom of the graph represent the ending date of each
                                       inspection period.




                                                                                                 Improvement Rates for Potential POV Mines
                                                                                       70                     Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                          Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


 Cycle 5 (09/01/07 - 08/31/09)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 1202010
                                                        Peabody Energy - Air Quality #1 Mine (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 10/01/09
                                                                       Starting S&S Rate = 9.30
                       100.00%



                        80.00%

                                          3.56
                        60.00%                                             4.05                                                    3.96
                                                                                                          4.31
                                         61.72%
                                                                         56.48%                                                   57.41%
                                                                                                         53.64%
                        40.00%
 Percent Improvement




                        20.00%



                         0.00%



                        -20.00%



                        -40.00%



                        -60.00%



                        -80.00%



                       -100.00%
                                         12/18/09                        03/24/10                        06/28/10                 09/24/10
                                            1                               2                               3                       4

                                                                                    Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                 30% Improvement to 6.51
                                       Improvement to Reach Industry Average of 6.22




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                Improvement Rates for Potential POV Mines
                                                                                       71                    Report No 05-11-002-06-001.
                                                                                    U.S. Department of Labor – Office of Inspector General

                                                                                                                             Exhibit 5, Continued

Graphs of S&S Rates Subsequent to Receipt of Potential POV Notification


 Cycle 5 (09/01/07 - 08/31/09)
                                                              Improvement in S&S Rate After PPOV Notice
                                                                            Mine ID 1517232
                                                           Gary E Peyton - Richland No 9 (Coal - Underground)
                                                                 PPOV Monitoring Start Date = 11/02/09
                                                                       Starting S&S Rate = 10.23
                        100.00%

                                           1.84
                         80.00%                                            2.65                                                        2.63
                                         82.01%                                                                3.02
                                                                         74.08%                                                      74.32%
                                                                                                             70.52%
                         60.00%


                         40.00%
  Percent Improvement




                         20.00%


                          0.00%


                         -20.00%


                         -40.00%


                         -60.00%


                         -80.00%


                        -100.00%
                                         12/29/09                        03/17/10                            06/22/10                09/27/10
                                           1                               2                                   3                       4

                                                                                       Inspection Period

                                       Percent Improvement in S&S Rate from PPOV Notice                    30% Improvement to 7.16

                                       Improvement to Reach Industry Average of 6.22




                              Notes: The number presented above each bar of the graph is the actual rate of S&S
                                     violations from the “Monitoring Start Date” shown in the heading through the ending
                                     date of the inspection period.

                                      The number presented inside each bar of the graph represents the percent
                                      reduction in the mine’s rate of S&S violations from the “Monitoring Start Date”
                                      shown in the heading through the ending date of the inspection period.

                                      Dates shown along the bottom of the graph represent the ending date of each
                                      inspection period.




                                                                                                   Improvement Rates for Potential POV Mines
                                                                                     72                         Report No 05-11-002-06-001.
